l:I8-cv-0ii97-CSB # 17

p. Fx .11

Page 1 of 17

Monday, 19 August, 2019 11:0-1.
Clerk, U.S. District Couit, ILl.^

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
URBANA DIVISION

DIEUSEUL BROWN,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
JOHN VARGA, Warden of Dixon
Correctional Center,
Respondent.

Case No. 18-CV-1197

ORDER
Petitioner, Dieuseul Brown, filed a Petition Under 28 U.S.C. § 2254 for a Writ of
Habeas Corpus By a Person in State Custody (#1) on May 21, 2018. Respondent, John
Varga, Warden of Dixon Correctional Center, filed an Answer (#8) on August 8, 2018,
to which Petitioner filed a Reply (#16) on April 8, 2019. For the following reasons,
Petitioner's Petition (#1) is DENIED.
BACKGROUND
The following is taken from the factual background presented in the Illinois state
court orders, specifically the Illinois Appellate Court's decision in People v. Brown, 79
N.E.3d 735 (Ill. App. Ct. 2017), and the documents filed by the parties. The factual
determinations of the state court are presumed to be correct, unless a petitioner rebuts
the presumption by clear and convincing evidence. 28 U.S.C. § 2254(e)(1).
Petitioner was charged with two alternative counts of first degree murder for the
shooting death of Kelsey Coleman. Count I alleged a charge of felony murder, in that
Coleman was shot during an armed robbery, in violation of section 9-1 (a) (3) of the

\

i:18-cv-0US7-CSB # 17

Page 2 of 17

Criminal Code (720 ILCS 5/9-l(a)(3) (West 2012)). Count II alleged that Petitioner shot
Coleman, knowing that the act created a strong probability of death or great bodily
harm, and in fact caused the death of Coleman, in violation of section 9-1 (a) (2) of the
Criminal Code (720 ILCS 5/9-l(a)(2) (West 2012)).
The case went to a jury trial. The evidence at trial indicated that, on April 4,
2013, Coleman had returned home with his three children and their mother at around 9
p.m. A handyman, John McNulty, was there performing some renovations. McNulty
testified that, around midnight, the back door crashed opened and the Petitioner came
in with a gun. Petitioner held a gun to McNulty's head and walked McNulty through
the house. Petitioner ran into Coleman in the hallway, and Coleman and Petitioner
started wrestling. The fight continued into the kitchen, and McNulty heard gunshots.
Coleman was walking stiffly from the kitchen and told McNulty that he had been shot.
McNulty helped Coleman sit down in the hallway.
The mother of Coleman's children, Melodie Richardson, testified that she heard
a loud bang and soon afterward Petitioner came into her room with a gun pointed at
McNulty's head. Petitioner demanded money, and Richardson called out for Coleman.
McNulty and Petitioner went back down the hallway, and Richardson hid with her
daughter in the bedroom closet. While in the closet, she heard two gunshots and heard
McNulty yell out to call the police. She came out of her room and saw Coleman
staggering down the hallway. She saw that he had been shot. She ran out of the house,

2

l:18-cv-01197-CSB # 17

Page 3 of 17

because her cell phone battery was dead. McNulty had already left. When the
paramedics arrived, Coleman was already dead. Richardson identified Petitioner from
a photo array, and McNulty identified Petitioner in a lineup.
Petitioner testified at trial that he went to Coleman's house around midnight on
April 4, 2013. Petitioner sold heroin and could not reach his usual supplier. He
knocked on the back door of Coleman's house, and Coleman let him in. Coleman gave
Petitioner the drugs he asked for, but Coleman thought that the money paid by
Petitioner was not the right amount. Petitioner tried to give the drugs back to Coleman
and asked for his money back. Coleman refused and started throwing punches at
Petitioner. Petitioner punched back, and he thought that Coleman was trying to kill
him. When Petitioner fell to the ground, his gun fell out of his waistband. Petitioner
testified that he picked it up and fired a warning shot, but that did not stop Coleman.
Petitioner testified that he felt that he had no choice but to shoot Coleman, so he fired
the gun into Coleman's back, while Coleman was on top of the Petitioner on the
ground. Petitioner then ran from the house, leaving the drugs and money behind.
At the jury instruction conference, the trial court approved instructions
pertaining to self-defense and second degree murder. The first degree murder
instructions were modified by agreement to differentiate between Count II, which was
referred to as First Degree Murder (Type A), and Count I, the felony murder count,
which was referred to as First Degree Murder (Type B). The parties agreed that Illinois
Jury Pattern Instruction, Criminal, No. 2.01B (4th ed. 2000) (hereinafter, IPI Criminal
4th) was to be given, modified to refer to first degree murder (Type A), which
3

l:18-cv-01197-CSB # 17

Page 4 of 17

provided:
"Under the law, a person charged with first degree murder may be found (1) not guilty
of first degree murder; or (2) guilty of first degree murder; or (3) guilty of second
degree murder." IPI Criminal 4th No. 2.01B.
The jury was also given IPI Criminal 4th No. 2.03A, which instructed that if the
State proved beyond a reasonable doubt that Petitioner was guilty of first degree
murder (Type A), then Petitioner had the burden of proving by a preponderance of
evidence that a mitigating factor was present so that he was guilty of the lesser offense
of second degree murder and not guilty of first degree murder (Type A). IPI Criminal
4th No. 2.03A. The jury was also instructed that it could not consider whether
Petitioner was guilty of the lesser offense of second degree murder unless it first
determined that Petitioner was proved guilty beyond a reasonable doubt of first degree
murder. With respect to the charge of first degree murder (Type A), the jury was given
three verdict forms: (1) not guilty of first degree murder (Type A); (2) guilty of first
degree murder (Type A); and (3) guilty of second degree murder. The judge instructed
the jury to select one verdict and sign it and not to write on the other two forms. The
jury was also given four other verdict forms: (1) not guilty of first degrfee murder (Type
B); (2) guilty of first degree murder (Type B); (3) the allegation that Petitioner
personally discharged the firearm was proven; and (4) the allegation that Petitioner
personally discharged the firearm was not proven.

4

l:18-cv-01197-CSB # 17

Page 5 of 17

After deliberations, the jury returned its verdicts. It did not follow the directions
regarding signing only one of the verdict forms relative to first degree murder (Type A)
and only signing the discharge of firearm verdicts if it found the Petitioner guilty of
first degree murder. The jury signed two verdict forms: not guilty of first degree
murder (Type A) and guilty of second degree murder. The jury also signed the verdict
forms stating that Petitioner was not guilty of first degree murder (Type B) and that the
allegation drat Petitioner had personally discharged the weapon was proven. The jury
was not polled, the verdicts were received and entered, and the jury was discharged.
; Petitioner filed a motion for a new trial, arguing, among other things, that he
was not proved guilty beyond a reasonable doubt. The trial court denied the motion
and proceeded to sentencing. Petitioner was sentenced to a 24-year term of
imprisonment. Petitioner's motion to reconsider his sentence was denied and Petitioner
appealed.
On appeal Petitioner argued that his second degree murder conviction must be
vacated because a finding of not guilty on first degree murder precluded a finding that
he was guilty of second degree murder. The State, in response, argued that Petitioner
forfeited this issue on appeal because he failed to make a timely objection or include the
issue in his posttrial motion and did not argue plain error. The appellate court found
that Petitioner forfeited the issue by failing to make a timely objection and by falling to
raise it in his posttrial motion. The court then went on to find, under a plain error
analysis:

5

l:18-cv-01197-CSB # 17

Page 6 of 17

While we find that the jury erred by returning inconsistent
verdicts, the entry of a conviction inconsistent with an acquittal is not of a
constitutional nature and it did not deny the defendant a substantial right.
The defendant has, therefore, failed to meet his burden of showing that
the error affected the fairness of his trial or challenged the integrity of the
judicial process. Accordingly, the second prong of plain-error review
does not provide a basis for excusing the defendant's procedural default,
and we affirm the defendant's conviction of second degree murder.
Brown, 79 N.E.3d at 740-41.
Petitioner filed a Petition for Leave to Appeal (PLA) with the Illinois Supreme
Court, raising the same issue. The supreme court denied the PLA.
Petitioner has now filed a federal habeas Petition pursuant to § 2254. Petitioner
raises one ground in his Petition: his rights to a fair trial and due process, as well as
protection against double jeopardy, under the U.S. Constitution were violated when he
was found guilty of second degree murder after being acquitted of first degree murder.
Petitioner argues that the verdict of not guilty on first degree murder precludes him
being found guilty of second degree murder.
ANALYSIS
Respondent argues that Petitioner's Petition should be denied because: (1)
Petitioner's claim is procedurally defaulted under the independent and adequate state
ground doctrine; and (2) the claim is meritless because the Illinois Appellate Court
correctly applied controlling U.S. Supreme Court precedent.

6

\

l:18-cv-01197-CSB ' # 17

Page 7 of 17

Respondent first argues that Petitioner's claim is procedurally defaulted because
the Illinois Appellate Court .found that Petitioner had forfeited his claim by failing to
raise it in a timely objection or posttrial motion, and that this forfeiture constitutes an
independent and adequate state ground for default.
When a state court resolves a federal claim by relying on a state law ground that
is both independent of the federal question and adequate to support the judgment,
federal habeas review of the claim is foreclosed. Richardson v. Lemke, 745 F.3d 258, 268
(7th Cir. 2014). In the habeas context, the "independent and adequate state ground"
doctrine does not serve as a jurisdictional bar, but rather is based instead on equitable
considerations of federalism and comity, and it serves to ensure that the states' interest
in correcting their own mistakes is respected in all federal habeas cases. Richardson, 745
F.3d at 268.
A procedural failure to raise the federal claim as required by state procedural
rules, often called a procedural default, is a common example of such an independent
and adequate state ground. Carter v. Douma, 796 F.3d 726, 733 (7th Cir. 2015). "A state
is entitled to treat as forfeited a proposition that was not presented in the right court, in
the right way, and at the right time—as state rules define those courts, ways, and
times." Szabo v. Walls, 313 F.3d 392, 395 (7th Cir. 2002). The Seventh Circuit has held
that failure to preserve an issue for appellate review by making a timely objection and
raising the issue in a posttrial motion constitutes an independent and adequate state
procedural ground of decision that precludes federal court habeas review. Miranda v.
Leibach, 394 F.3d 984, 992 (7th Cir. 2005); Johnson v. Pfister, 2017 WL1862641, at *12
7

l:18-cv-01197-CSB # 17

Page 8 of 17

(N.D. Ill. May 9, 2017). Further, when a defendant fails to object, causing his claim to
be forfeited on direct appellate review, and the Illinois court reviews the defendant's
claim for plain error, such plain error review does not constitute adjudication on the
merits, and consequently does not cure the defendant's default. Kaczmarek v. Rednour,
627 F.3d 586,594 (7th Cir. 2010); Miranda, 394 F.3d at 992.
Thus, Petitioner clearly forfeited his claim by not making a timely objection at
trial and by failing to raise the issue in a posttrial motion, providing the Illinois
Appellate Court with an independent and adequate basis to resolve his federal claim,
foreclosing review in this court on the merits. See Miranda, 394 F.3d at 992. Further,
the court finds that the Illinois Appellate Court's engaging in a plain error analysis of
Petitioner's claim did not constitute an adjudication on the merits and does not cure his
procedural default. See Kaczmarek, 627 F.3d at 594. Petitioner has procedurally
defaulted his claim.
Procedural default may be excused if the petitioner can show both cause for and
prejudice from the default, or can demonstrate that failure to consider the claim would
result in a fundamental miscarriage of justice. Bolton v. Akpore, 730 F.3d 685, 696 (7th .
Cir. 2013). The fundamental miscarriage of justice exception applies only in the
"extremely rare" and "extraordinary case" where the petitioner is actually innocent of
the crime for which he is imprisoned, and to support such a claim, a petitioner must
come forward with new reliable evidence, whether it be exculpatory scientific
evidence, trustworthy eyewitness accounts, or critical physical evidence, that was not
presented at trial. Gomez v. Jaimet, 350 F.3d 673, 679 (7th Cir. 2003). The petitioner
8

l:18-cv-01197-CSB # 17

Page 9 of 17

must also establish that "it was more likely than not that no reasonable juror would
have convicted him in light of the new evidence." Gomez, 350 F.3d at 679, quoting
Schlup v. Delo, 513 U.S. 298,327 (1995).
In his Reply (#16), Petitioner argues that his procedural default should be
excused because failure to review his claim on the merits will result in a miscarriage of
justice. Petitioner does not satisfy the fundamental miscarriage of justice exception
because he presents no new reliable evidence demonstrating that he is actually innocent
of second degree murder, such as exculpatory scientific evidence, trustworthy
eyewitness accounts, or critical physical evidence, that was not presented at trial. See
Gomez, 350 F.3d at 679. Rather, h,e argues that the Illinois Appellate Court improperly
interpreted and applied U.S. Supreme Court precedent in rejecting his argument, On
plain error review, that the jury's acquittal on the first degree murder charge precluded
the jury from finding him guilty of second degree murder.
However, even if the court were to review Petitioner's claim on the merits, based
on the Illinois Appellate Court's plain error review, the court would find that the
Illinois court reasonably applied U.S. Supreme Court precedent to resolve the claim.
Under the Antiterrorism and Effective Death Penalty Act of 1996 (" AEDPA"), the court
may grant habeas relief only if the state court's adjudication of the issue: (1) resulted in
a decision that was contrary to, or involved an unreasonable application of, clearly
established federal law, as determined by the Supreme Court of the United States or (2)
resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the state-court proceeding. 28 U.S.C. § 2254(d). "For
9

l:18-cv-01197-CSB # 17

Page 10 of 17

the purposes of habeas corpus review, '[c]learly established federal law' means 'the
governing principle or principles set forth by the Supreme Court at the time the state
court renders its decision.'" Brown v. Finnan, 598 F.3d 416, 421 (7th Cir. 2010), quoting
Lockyer v. Andrade, 538 U.S. 63, 71-72 (2003). A state court decision is "contrary to"
federal law if the state court either erroneously laid out governing U.S. Supreme Court
precedent, or, having identified the correct rule of law, decided a case differently than a
materially factually indistinguishable Supreme Court case. Brown, 598 F.3d at 421-22.
An unreasonable application' of U.S. Supreme Court precedent occurs when a state
court identifies the correct governing legal rule but unreasonably applies it to the facts
of a case or if the state court either unreasonably extends a legal principle from the
Supreme Court's precedent to a new context in which it should not apply or
unreasonably refuses to extend that principle to a new context in which it should
apply." Brown, 598 F.3d at 422.

<

In United States v. Powell, 469 U.S. 57 (1984), the jury acquitted the defendant of
conspiracy to possess cocaine and of possession of cocaine, but nevertheless found her
guilty of using the telephone to facilitate those offenses. The appellate court reversed

10

\

l:18-cv-01197-CSB # 17

Page 11 of 17

the conviction, holding that the acquittal on the predicate felony necessarily indicated
that there was insufficient evidence to support the telephone facilitation conviction and
mandated acquittal on that count as well.
The Supreme Court rejected that reasoning and reiterated its established ruling
that inconsistency in jury verdicts is not a basis for reversal except in the situation in
which two guilty verdicts cannot coexist. Powell, 469 U.S. at 68-69. The Court
reiterated that 6ach count in an indictment is regarded as if it were a separate
indictment, stating that where a jury returns an inconsistent verdict, "'[t]he most that'
can be said in such cases is that the verdict shows that either in the acquittal or the
conviction the jury did not speak their real conclusions, but that does not show that
they were not convinced of the defendant's guilt. We interpret the acquittal as no more
than the assumption of a power which they had no. right to exercise, but which they

'

were disposed through lenity.'" Powell, 469 U.S. at 63, quoting Dunn v. United States,.
284 U.S. 390, 393 (1932). Thus, the Court wrote, although the inconsistency in the
verdicts certainly, reflected an "'error' in the sense that the jury has not followed the
court's instruction ... it is unclear whose, ox has been gored[,]" i.e. it was not clear who
the jury's error favored. Powell, 469 U.S. at 65. The Court further found that a number
of factors weighed against allowing review of verdicts based solely on inconsistency,
including the difficulty in determining in whose favor the "error" was made, the
inability of the government to invoke review of the acquittal, and the reluctance to
inquire into the inner workings of the jury. Powell, 469 U.S. at 68-69. Moreover, the
Court wrote, a defendant was protected from jury irrationality as to an individual
11

l:i8-cv-01197-CSB # 17

Page 12 of 17

count by the independent review of the sufficiency of the evidence, which would
ensure that the evidence supported a rational determination of guilt beyond a
reasonable doubt as to that count. Powell, 469 U.S. at 67; see United States v. Pisman, 443
F.3d 912, 914 (7th Cir. 2006) (summarizing Supreme Court's holding in Powell).
In People v. Brown, 79 N.E.3d 735 (Ill. App. Ct. 2017), having earlier found that
Petitioner had forfeited his argument that his acquittal of first degree murder
precluded his conviction for second degree murder, the Illinois Appellate Court began
its plain error analysis of Petitioner's argument by noting that his case was not one of
inconsistent guilty verdicts, but rather of a guilty verdict inconsistent with an acquittal
on another count. The court then discussed the Supreme Court's decision in Powell:
which held that a criminal defendant convicted by a jury on one count
could not attack that conviction because it was inconsistent with the jury's
verdict of acquittal on another count, to cases where the acquittal was on a
predicate offense and the conviction was on the compound offense. The
Powell court found that inconsistent verdicts were in error, but not of a
constitutional nature. The rationale for not allowing the defendant to
challenge such an inconsistent jury verdict was that the government could
not challenge the acquittal and it was unclear who the jury's error
favored. Also, the error could have been the result of juror lenity.
Finally, the defendant was protected against jury irrationality or error
because of sufficiency of the evidence review.
Brown, 79 N.E.3d at 739, citing Powell, 469 U.S. at 65-67.
Turning to the facts of Petitioner's case, the court noted that, in Pozuell, the
defendant was convicted of the lesser-included offense and acquitted of the greater
offense, while Petitioner was convicted of the lesser-mitigated offense and acquitted of
the greater offense. However, the court found, the rationale of Powell still applied

12

\

l:18-cv-01197-CSB # 17

Page 13 of 17

because: (1) while it is clear that the jury was in error in returning inconsistent verdicts,
it was unclear who the jury's error favored and the government could not challenge the
acquittal; (2) the verdict could still be explained as the result of juror lenity, as second
degree murder is a "lesser" offense than first degree murder because its penalties are
lesser; and (3) Petitioner was protected against jury irrationality or error because he
could have sought a review of the sufficiency of the evidence. Brown, 79 N.E.3d at 740,
citing Powell, 469 U.S. at 65-69., The court addressed the dissent's1 contention that the
acquittal of first degree murder demonstrated the insufficiency of the State's evidence
for second degree murder, noting that Powell required a review of the sufficiency of the
evidence "independent of the jury's determination that evidence on another count was
insufficient." Brown, 79 N.E.3d at 740, quoting Powell, 469 U.S. at 67. This sufficiency
of the evidence review, the Illinois Appellate Court wrote/which protected Petitioner
against jury irrationality, required.the appellate court "to independently assess the
1

evidence adduced at trial and determine if it would support any rationed determination
of guilt of second degree murder beyond a reasonable doubt." Brown, 79 N.E.3d at 740,
citing Powell, 469 U.S. at 67.

'Justice McDade dissented. Justice O'Brien authored the majority opinion,
joined by Justice Lytton.
13

l:18-cv-01197-CSB * 17

Page 14 of 17

The Illinois Appellate Court then recounted the evidence adduced at trial:
To sustain the defendant's second degree murder conviction, the
State was required to prove that the defendant performed the acts that
actually caused Coleman's death and that the defendant knew that such
acts created a strong probability of death or great bodily harm to
Coleman. Those elements are not in dispute; the defendant testified at
trial that he went to Coleman's home and shot Coleman in the back. The
State also had to prove, though, that the defendant was not justified in
using deadly force and that the defendant's belief that the circumstances
justified deadly force as unreasonable. The defendant testified that he
was invited into Coleman's home and that he shot Coleman during an
altercation in which Coleman was the aggressor in an argument over
drugs and money. The defendant testified that Coleman was on top of
the defendant On the ground, choking the defendant, and defendant
believed he had to shoot Coleman. McNulty and Richardson testified,
though, that the defendant was an aggressive intruder who held a gun to
McNulty's head, demanded money, and was looking for Coleman.
Although neither saw the shooting, they both saw the defendant on his
feet after the shooting, rather than lying on the ground.
Brown, 79 N.E.3d at 740.
The appellate court found "that the evidence was sufficient so that a.jury could
rationally determine that the defendant was the aggressor, that he was not justified in
using deadly force, and that any belief that deadly force was necessary was
unreasonable." Brown, 79 N.E.3d at 740. Thus, the appellate court concluded:
While we find that the jury erred by returning inconsistent
verdicts, the entry of a conviction inconsistent with an acquittal is not of a
constitutional nature and it did not deny the defendant a substantial right.
The defendant has, therefore, failed to meet his burden of showing that
the error affected the fairness of his trial or challenged the integrity of the
judicial process. Accordingly, the second prong of plain-error review
does not provide a basis for excusing the defendant's procedural default,
and we affirm the defendant's conviction of second degree murder.
Brown, 79 N.E.3d at 740-41.
The Illinois Appellate Court correctly recognized the applicable Supreme Court
14

i:18-cv-01197-CSB # 17

Page 15 of 17

precedent to apply to Petitioner's claims of the denial of a substantial right and the
right to a fair trial, due to what Petitioner viewed to be the preclusive effect of the first
degree murder acquittal on Petitioner's conviction for second degree murder. The
Illinois court correctly stated Powell's holding, and properly applied it to the facts of
Petitioner's case and Petitioner's argument. The Illinois court, like the Supreme Court
in Powell, recognized that the jury had erred in returning inconsistent verdicts, but, like
in Powell, it was not clear who the error favored, and, as Powell provided, the error
could still be explained as a result of juror lenity, because second degree murder is a
"lesser" offense than first. Finally, as prescribed in Powell, the Illinois court engaged in
a sufficiency of the evidence review to protect against jury irrationality or error, finding
that the evidence was sufficient to convict Petitioner of second degree murder. Based
on the foregoing, this court cannot say that the Illinois Appellate Court's analysis
resulted in a decision that was contrary to, or involved an unreasonable application of,
clearly established federal law, as determined by the Supreme Court of the United
States. See Brown, 598 F.3d at 421-22.
CERTIFICATE OF APPEALABILITY (COA)
In Slack v. McDaniel, the United States Supreme Court held that "when the
district court denies a habeas petition on procedural grounds without reaching the
prisoner's underlying constitutional claim, a COA should issue when the prisoner
shows, at least, that jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason would find

15

1

l:18-cv-0119/r-CSB #17

Page 16 of 17

it debatable whether the district court was correct in its procedural ruling." Slack v.
McDaniel, 529 U.S. 473, 484 (2000). "Where a plain procedural bar is present and the
district court is correct to invoke it to dispose of the case, a reasonable jurist could not
conclude either that the district court erred in dismissing the petition or that the
petitioner should be allowed to proceed further." Slack, 529 U.S. at 484. Further, in
Barefoot v. Estelle, 463 U.S. 880 (1983), superseded on other grounds by 28 U.S.C. §
2253(c)(2), the Supreme Court set forth the methodology to be used in evaluating a
request for a COA. A petitioner need not demonstrate that he should prevail on the
merits, but rather must demonstrate that the issues are debatable among jurists of
reason, that the court could resolve the issues in a different manner, or that the
questions are adequate to deserve encouragement to proceed further. Barefoot, 463 U.S.
at 893, n.4.
Here, it is clear that Petitioner s habeas petition was decided on an independent
and adequate state ground. Further, even if the court were to reach the merits of
Petitioner s argument, the court would find the Illinois Appellate Court reasonably
applied the pertinent U.S. Supreme Court precedent on governing federal law. The
court believes that Petitioner has not demonstrated that the issues raised are debatable
among jurists of reason. The court would not resolve the issues in a different manner

16

i:18-cv-Q1197-CSB # 17

Page 17 of 17

nor does it believe the questions are adequate to deserve encouragement to proceed
further. Petitioner has not made a substantial showing of the denial of a constitutional
right. Therefore, a certificate of appealability is denied.
IT IS THEREFORE ORDERED THAT:
(1) Petitioner's Petition for Writ of Habeas Corpus By a Person in State Custody
Pursuant to 28 U.S.C. § 2254 (#1) is DENIED.
(2) Petitioner's request for a Certificate of Appealability is DENIED.
(3) This case is terminated.
ENTERED this 19th day of August, 2019.

s/ COLIN S. BRUCE
U.S. DISTRICT JUDGE

17

Ex ■ C

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted May 28, 2020
Decided June 8, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
DIANE S. SYKES, Circuit Judge
No. 19-2797
DIEUSEUL BROWN,
Petitioner-Appellant,
v.
JOHN VARGA,
Respondent-Appellee.

Appeal from the United States District
Court for the Central District of Illinois.
No. 18-CV-1197
Colin S. Bruce,

Judge.
ORDER

Dieuseul Brown has filed a notice of appeal from the denial of his petition under
28 U.S.C. § 2254 and an application for a certificate of appealability. We have reviewed
the final order of the district court and the record On appeal We find no substantial
showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, Brown's request for a certificate of appealability, his motion to
proceed in forma pauperis, and his motion for appointment of counsel are DENIED.

EXHIBITS

Ex ..A -

2017 IL App (3d) 140514
Opinion filed May 16,2017
IN THE
APPELLATE COURT OF ILLINOIS
THIRD DISTRICT
2017
THE PEOPLE OF THE STATE
OF ILLINOIS,
Plaintiff-Appellee,

)
)
)
)

v.

)
)

DIEUSEUL BROWN,
Defendant-Appellant.

)
)
)
)

Appeal from the Circuit Court
of the 10th Judicial Circuit,
Peoria County, Illinois.
Appeal No. 3-14-0514
Circuit No. 13-CF-299
Honorable
David A. Brown,
Judge, Presiding.

JUSTICE O’BRIEN delivered the judgment of the court, with opinion.
Justice Lytton concurred in the judgment and opinion.
Justice McDade dissented, with opinion.
OPINION

1i I

The defendant, Dieuseul Brown, appealed his conviction of second degree murder.

12

FACTS

13

The defendant was charged with two alternative counts of first degree murder for the
shooting death of Kelsey Coleman. Count I alleged a charge of felony murder, in that Coleman
was shot during an armed robbery, in violation of section 9-1 (a)(3) of the Criminal Code (720
ILCS 5/9-1 (a)(3) (West 2012)). Count II alleged that the defendant shot Coleman, knowing that

A-1

the act created a strong probability of death or great bodily harm, and in fact caused the death of
Coleman, in violation of section 9-1 (a)(2) of the Criminal Code (720 ILCS 5/9-l(a)(2) (West
2012)). The case went to a jury trial. The evidence at trial indicated that, on April 4, 2013,
Coleman had returned home with his three children and their mother at around 9 p.m. A
handyman, John McNulty, was there performing some renovations. McNulty testified that,
around midnight, the back door crashed opened and the defendant came in with a gun. The
defendant held a gun to McNulty’s head and walked McNulty through the house. The defendant
ran into Coleman in the hallway, and Coleman and the defendant started wrestling. The fight
continued into the kitchen, and McNulty heard gunshots. Coleman was walking stiffly from the
kitchen and told McNulty that he had been shot. McNulty helped Coleman sit down in the
hallway.
14

The mother of Coleman’s children, Melodie Richardson, testified that she heard a loud
bang and soon afterward the defendant came into her room with a gun pointed at McNulty’s
head. The defendant demanded money, and Richardson called out for the Coleman. McNulty and
the defendant went back down the hallway, and Richardson hid with her daughter in the bedroom
closet. While in the closet, she heard two gunshots and heard McNulty yell out to call the police.
She came out of her room and saw Coleman staggering down the hallway. She saw that he had
been shot. She ran out of the house, because her cell phone battery w'as dead. McNulty had
already left. When the paramedics arrived, Coleman was already dead. Richardson identified the
defendant from a photo array, and McNulty identified the defendant in a lineup.

15

The defendant testified at trial that he went to Coleman’s house around midnight on April
4, 2013. The defendant sold heroin and could not reach his usual supplier. He knocked on the
back door of Coleman’s house, and Coleman let him in. Coleman gave the defendant the drugs

2
A-2

he asked for, but Coleman thought that the money paid by the defendant was not the right
amount. The defendant tried to give the drugs back to Coleman and asked for his money back.
Coleman refused and started throwing punches at the defendant. The defendant punched back,
and he thought that Coleman was trying to kill him. When the defendant fell to the ground, his
gun fell out of his waistband. The defendant testified that he picked it up and fired a warning
shot, but that did not stop Coleman. The defendant testified that he felt that he had no choice but
to shoot Coleman, so he fired the gun into Coleman’s back, while Coleman was on top of the
defendant on the ground. The defendant then ran from the house, leaving the drugs and money
behind.

16

At the jury instruction conference, the trial court approved instructions pertaining to selfdefense and second degree murder. The first degree murder instructions were modified by
agreement to differentiate between Count II, which was referred to as First Degree Murder (Type
A), and Count I, the felony murder count, which was referred to as First Degree Murder (Type
B). The parties agreed that Illinois Jury Pattern Instruction, Criminal, No. 2.01 B (4th ed. 2000)
(hereinafter, IPI Criminal 4th) was to be given, modified to refer to first degree murder (Type A),
which provided:
“Under the law, a person charged with first degree murder may be found (!) not guilty of
first degree murder; or (2) guilty of first degree murder; or (3) guilty of second degree
murder.” IPI Criminal 4th No. 2.0IB.

17

The jury was also given IPI Criminal 4th No. 2.03 A, which instructed that if the State
proved beyond a reasonable doubt that the defendant was guilty of first degree murder (Type A),
then the defendant had the burden of proving by a preponderance of evidence that a mitigating
factor was present so that he was guilty of the lesser offense of second degree murder and not

3
A-3

guilty of first degree murder (Type A). IPI Criminal 4th No. 2.03A. The jury was also instructed
that it could not consider whether the defendant was guilty of the lesser offense of second degree
murder unless it first determined that the defendant was proved guilty beyond a reasonable doubt
of first degree murder. With respect to the charge of first degree murder (Type A), the jury was
given three verdict forms: (1) not guilty of first degree murder (Type A); (2) guilty of first degree
murder (Type A); and (3) guilty of second degree murder. The judge instructed the jury to select
one verdict and sign it and not to write on the other two forms. The jury was also given four
other verdict forms: (1) not guilty of first degree murder (Type B); (2) guilty of first degree
murder (Type B); (3) the allegation that the defendant personally discharge the firearm was
proven; and (4) the allegation that the defendant personally discharged the firearm was not
proven.

18

After deliberations, the jury' returned its verdicts. It did not follow the directions
regarding signing only one of the verdict forms relative to first degree murder (Type A) and only
signing the discharge of firearm verdicts if it found the defendant guilty of first degree murder.
The jury signed two verdict forms: not guilty of first degree murder (Type A) and guilty of
second degree murder. The jury also signed the verdict forms stating that defendant was not
guilty of first degree murder (Type B) and that the allegation that the defendant had personally
discharged the weapon was proven. The jury was not polled, the verdicts were received and
entered, and the jury was discharged.

19

The defendant filed a motion for a new trial, arguing, among other things, that he was not
proved guilty beyond a reasonable doubt. The trial court denied the motion and proceeded to
sentencing. The defendant was sentenced to a 24-year term of imprisonment. The defendant’s
motion to reconsider his sentence was denied and defendant appealed.

4
A-4

If 10

ANALYSIS

If 11

The defendant argues that his conviction of second degree murder must be vacated
because a finding of not guilty verdict of first degree murder precluded a finding that he was
guilty of second degree murder. The State argues that the jury mistakenly filled out extra verdict
forms. Also, the State argues that the defendant forfeited this issue on appeal because he failed to
make a timely objection or include the issue in his posttrial motion and did not argue plain error.
The issue of whether a defendant forfeited an argument on appeal is a question of law that we
review de novo. People v. Herron, 215 Ill. 2d 167, 174 (2005).

1f 12

A defendant who fails to make a timely objection and include the issue in a posttrial
motion forfeits review of the issue. Herron, 215 Ill. 2d at 175. There is no dispute that the
defendant did neither of these. The defendant argues, though, that he is really raising a
reasonable doubt argument, which can be made for the first time on appeal. People v. King, 151
Ill. App. 3d 644, 646 (1987); People v. Walker, 7 Ill. 2d 158, 160 (1955) (“The failure to prove a
material allegation of an indictment beyond a reasonable doubt is fatal to a judgment of
conviction, and the question may be raised for the first time upon review.”). The defendant
contends that the jury’s verdict of not guilty of first degree murder means that the State failed to
prove a material element of the charge of second degree murder. In Walker, the material
allegation that was not proved at trial was the identity of the people whose belongings were
burglarized; the appellate court reversed the conviction because the identity of the victim was an
essential element of the crime grounded in double jeopardy principles. Id. at 162. In King, the
defendant argued that his identity was not proven. King, 151 Ill. App. 3d at 648.

113

The defendant in the instant case is not raising the same argument that the courts in
Walker and King found to be outside of the waiver rule. The defendant did not argue that his
5

A-5

identity was not proven, nor did he argue that he did not shoot the victim. The defendant’s
argument, although he denies it, is basically that the verdicts were inconsistent. Since the
defendant argued for plain error review in his reply brief, we will consider the issue for plain
error under the second prong of the plain error analysis, i.e., where the error is so serious that the
defendant was denied a substantial right and thus a fair trial. See People v. Williams, 193 Ill. 2d
306, 348 (2000); Herron, 215 Ill. 2d at 179.

If 14

The defendant primarily relies upon People v. Parker, 223 Ill. 2d 494 (2006), wherein the
Illinois Supreme Court stated that “a finding that the defendant is not guilty of first degree
murder bars the jury from considering second degree murder, and the jury verdict form of ‘not
guilty of first degree murder’ would unambiguously establish the jury’s intention to acquit on all
charges.” Parker, 223 Ill. 2d at 505. In that case, however, the Court was addressing jury verdict
forms, not inconsistent verdicts. The jury in Parker had been provided with three verdict forms:
not guilty of first degree murder, guilty of first degree murder, and guilty of second degree
murder. There was no error in the trial court’s failure to provide a fourth verdict form, a general
“not guilty” verdict form, because the jury was properly instructed and followed the instructions,
whereby a finding of not guilty of first degree murder precluded a finding of guilty of second
degree murder. Id.

11 15

While the jury in the instant case was similarly correctly instructed, it is clear that the
jury did not follow the instructions because it filled out more than one verdict form and signed
the form on the allegation that the defendant personally discharged the firearm. It is without
question that second degree murder is a lesser mitigated offense of first degree murder. Parker,
223 111. 2d at 504-05 (citing People v. Jeffries, 164 Ill. 2d 104, 122 (1995)). Thus, the jury found
essential elements, the elements of first degree murder, to exist and to not exist, resulting in

6

A-6

inconsistent verdicts. People v. Lejler, 2016IL App (3d) 140293, If 20 (jury verdicts are legally
inconsistent when an essential element of each offense is found to exit and to not exist, even
though the offenses arise out of the same set of facts); People v. Porter, 168 Ill. 2d 201, 214
(1995) (verdicts that defendant was guilty but mentally ill of both second degree and first degree
murder for the death of his mother were inconsistent because they found the murder both
provoked and unprovoked at the same time).
1jl6

This is not a case of inconsistent guilty verdicts, but rather a guilty verdict that is
inconsistent with an acquittal on another count. The United States Supreme Court, in United
States v. Powell, 469 U.S. 57 (1984), extended earlier precedent, Dunn v. United States, 284 U.S.
390 (1932), which held that a criminal defendant convicted by a jury on one count could not
attack that conviction because it was inconsistent with the jury’s verdict of acquittal on another
count, to cases w;here the acquittal was on a predicate offense and the conviction was on the
compound offense. Powell, 469 U.S. at 65. The Powell court found that inconsistent verdicts
were in error, but not of a constitutional nature. Id. at 66. The rationale for not allowing the
defendant to challenge such an inconsistent jury verdict was that the government could not
challenge the acquittal and it was unclear who the jury’s error favored. Id. Also, the error could
have been the result of juror lenity. Id. Finally, the defendant was protected against jury
irrationality or error because of sufficiency of the evidence review. Id. at 67.

H 17

Illinois initially did not follow Powell, finding that it was decided under the Supreme
Court’s supervisory powers and was not of constitutional magnitude. People v. Klingenberg, 172
III. 2d 270, 277 (1996). In Klingenberg, the defendant argued that the jury verdict convicting him
of official misconduct was legally inconsistent with the verdict acquitting him of theft. Id. at 272.
The Klingenberg panel took issue with the idea of juror lenity when the jury acquits of the

7
A-7

predicate offense and convicts of the compound offense. Id. at 278. However, the Illinois
Supreme Court later overruled Klingenberg and applied Powell in People v. Jones, 207 Ill. 2d
122 (2003). In Jones, the defendant was acquitted of aggravated battery but convicted of mob
action. The Court pointed out that there were not two guilty verdicts but rather one guilty and
one acquittal. Id. at 135-36.
1118

The difference between the instant case and the Powell and Jones line of cases is that
those defendants were convicted of the lesser-included offense and acquitted of the greater
offense, while the defendant in this case was convicted of the lesser-mitigated offense and
acquitted of the greater offense. However, the rationale of Powell still applies. While it is clear
that the jury was in error in returning inconsistent verdicts, in the words of the U.S. Supreme
Court in Powell, “it is unclear whose ox has been gored,” and it is unclear who the jury’s error
favored. See Powell, 469 U.S. at 65. The government could not challenge the acquittal. Also, the
verdict could still be explained as the result of juror lenity: second degree murder is a “lesser”
offense than first degree murder because its penalties are lesser. See People v. Newbern, 219 Ill.
App. 3d 333, 353 (1991). Finally, the defendant was protected against jury irrationality or error
because he could have sought a review of the sufficiency of the evidence. The dissent contends
that the acquittal of first degree murder demonstrates the insufficiency of the State’s evidence for
second degree murder, but Powell requires a review of the sufficiency of the evidence
“independent of the jury’s determination that evidence on another count was insufficient.”
Powell, 469 U.S. at 67. This sufficiency of the evidence review, which will protect a defendant
against jury irrationality, requires us to independently assess the evidence adduced at trial and
determine if it would support any rational determination of guilt of second degree murder beyond

8
A-8

a reasonable doubt. See id. Thus, although the defendant fails to point to any specific evidentiary
insufficiencies, we will assess the evidence admitted at trial.
f 19

To sustain the defendant’s second degree murder conviction, the State was required to
prove that the defendant performed the acts that actually caused Coleman’s death and that the
defendant knew that such acts created a strong probability of death or great bodily harm to
Coleman. Those elements are not in dispute; the defendant testified at trial that he went to
Coleman’s home and shot Coleman in the back. The State also had to prove, though, that the
defendant was not justified in using deadly force and that the defendant’s belief that the
circumstances justified deadly force as unreasonable. The defendant testified that he was invited
into Coleman’s home and that he shot Coleman during an altercation in which Coleman was the
aggressor in an argument over drugs and money. The defendant testified that Coleman was on
top of the defendant on the ground, choking the defendant, and defendant bel ieved he had to
shoot Coleman. McNulty and Richardson testified, though, that the defendant was an aggressive
intruder who held a gun to McNulty’s head, demanded money, and was looking for Coleman.
Although neither saw the shooting, they both saw the defendant on his feet after the shooting,
rather than lying on the ground. We find that the evidence was sufficient so that a jury could
rationally determine that the defendant was the aggressor, that he was not justified in using
deadly force, and that any belief that deadly force was necessary was unreasonable.

120

While we find that the jury erred by returning inconsistent verdicts, the entry of a
conviction inconsistent with an acquittal is not of a constitutional nature and it did not deny the
defendant a substantial right. The defendant has, therefore, failed to meet his burden of showing
that the error affected the fairness of his trial or challenged the integrity of the judicial process.
Accordingly, the second prong of plain-error review does not provide a basis for excusing the

9
A-9

defendant’s procedural default, and we affirm the defendant’s conviction of second degree
murder.
121

CONCLUSION

122

The judgment of the circuit court of Peoria County is affirmed.

123

Affirmed.

124

JUSTICE McDADE, dissenting.

125

The majority has affirmed the conviction of defendant, Dieuseul Brown, of second degree
murder, finding, in essence, that Brown forfeited his protection against jury irrationality or error
by failing to challenge the sufficiency of the State’s evidence. Because he has clearly raised
precisely that challenge, I respectfully dissent from this finding.

126

Despite having been instructed multiple times by the court that they were to complete
only one verdict form, the jurors, at the end of their deliberations, presented two signed verdicts
to the court. One verdict acquitted Brown of first degree murder and the second found him guilty
of second degree murder.

127

Despite having instructed the jury multiple times that they were to complete only one
verdict form, the court, upon learning that the jurors had executed two forms, accepted and
entered judgment on both verdicts.

128

Brown’s acquittal of first degree murder cannot be before this court in this appeal. Brown
has neither a reason nor a right to raise it because he was found not guilty. Ill. Const. 1970, art.
VI, § 6 (stating that “after a trial on the merits in a criminal case, there shall be no appeal from a
judgment of acquittal”); People v. Pearson, 16 Ill. App. 3d 543, 549 (1973). The State is legally
prohibited from raising it because Brown was acquitted by the jury. People v. Kapande, 23 Ill. 2d
230, 236 (1961) (holding that “[t]he State’s appeal from the judgment of‘not guilty’ in the
10
A-10

criminal case is dismissed and no citation of authority is necessary for the proposition that the
State cannot appeal from a ‘not guilty’ judgment”).
129

Thus, the only issue properly before this court is Brown’s challenge to his conviction of
second degree murder. The sole argument Brown has advanced is that the State has failed to
prove an essential element of the crime—that he is guilty of first degree murder. Throughout his
initial and reply briefs, he has persisted in that very argument. Nowhere in his briefs has he
raised a claim of inconsistent verdicts. Nor does his argument implicate the principles or
precedent relating to lesser included offenses. See supra Iff 17-18.

130

Because Brown has not raised these issues and because that case does not deal with a
murder statute such as the one applicable in the instant case, the decision of the United States
Supreme Court in United States v. Powell, 469 U.S. 57 (1984), on which the majority relies, is
inapposite. Powell was a claim of inconsistent verdicts in a drug prosecution pursued via
multiple claims in multiple counts. Citing its earlier decision in Dunn v. United States, 284 U.S.
390 (1932), the Powell court reiterated that “ ‘[consistency in the verdict is not necessary. Each
count in an indictment is regarded as if it was a separate indictment.’ ” Powell, 469 U.S. at 62
(quoting Dunn, 284 U.S. at 62). It, thus, rejected Betty Lou Powell’s argument that, because of
the overlapping nature of the required evidence, the jury’s verdict acquitting her on some of the
counts was inconsistent with its guilty verdict on the other counts. That is not and never has been
the claim raised by Browm in this case; his only claim is that the evidence was insufficient to
convict him of second degree murder because the State failed to prove an essential element of the
crime. This is a quintessential insufficiency-of-the-evidence claim.

131

The majority also cites Powell as requiring a review of the sufficiency of the evidence
“independent of the jury’s determination that evidence on another count was insufficient,”
11
A-ll

Powell, 469 U.S. at 67, and notes that Brown has failed to point to any specific evidentiary
insufficiencies. It is unclear exactly what specific insufficiencies he could raise.
11 32

It is neither reasonable nor necessary for Brown to either raise or argue the insufficiency
of any evidence presented by the State that resulted in his acquittal of first degree murder. It was
at all times the State’s burden to prove Brown guilty beyond a reasonable doubt of first degree
murder. Brown had no burden of proof regarding that charge in the trial court and he equally has
no such burden in this court. See, e.g., People v. McGee, 2015 IL App (1st) 130367, ^ 69
(holding that “[i]t is axiomatic that an accused is presumed innocent and that the burden of proof
as to his guilt lies, at all times, with the State”). The jury found Brown not guilty of first degree
murder, and we have no basis for concluding it did not intend to do so. He had raised the
affirmative defense of self-defense, and the jurors may well have believed him. The trial court
entered that verdict as an individual and distinct judgment. There is, quite simply, nothing for
either party to raise or to prove. Any review of the sufficiency of the evidence to either attack or
justify the first degree murder acquittal is both improper and unconstitutional.

133

Moreover, such a procedure would invite the State to come through the back door to
finesse an argument, as it appears to do here, that the jury really intended to find Brown guilty of
first degree murder because it intended to find him guilty of second degree murder. If the State is
constitutionally prohibited from a frontal attack on the jury’s finding of not guilty, it surely is
similarly barred from assaulting it by indirection or subterfuge.

f34

It is clear that the jury misunderstood the instructions about how to fill out the verdict
forms and that a mistake was made. It is not at all clear, however, w’hat that mistake was. Despite
the arguments of the State, there is no actual factual basis for determining that the jurors did not,
in fact, intend to acquit Brown of first degree murder. Without such a finding, his conviction of
12
A-12

t-

second degree murder cannot legally stand. To determine that the jurors did not so intend is to
engage not only in an unconstitutional review of his acquittal but also in wanton speculation. To
find Brown guilty of second degree murder in the face of his acquittal of first degree murder flies
in the face of the plain and unambiguous language of the statute and frustrates the manifest intent
of the legislature.
1 35

In summary, the jury acquitted Brown of the first degree murder of Coleman; that
acquittal cannot be challenged constitutionally by either the defendant or the State; the statute
clearly and unambiguously requires, as the first necessary element of proof for second degree
murder, that the State prove Brown guilty of first degree murder; the State did not—indeed,
could not—provide such proof because of the acquittal; therefore, the evidence was insufficient
as a matter of law to prove him guilty of second degree murder. I can see no choice but to
reverse that conviction. If we do not do so, we will have violated our sworn duty to enforce the
law as written and enacted by the legislature.

136

It is possible, but not certain, that Brown was wrongly acquitted of first degree murder.
He is nonetheless legally not guilty. It seems trite but is nevertheless true to say that it is better to
risk exonerating a possible wrongdoer than to (1) ignore the unambiguous language of a duly
enacted statute or (2) intentionally and deliberately undermine the most fundamental
constitutional principles and procedures undergirding our criminal justice/criminal judicial
system.

13
A-13

